Case: 20-20238

Document: 00515801255

Page: 1

Date Filed: 03/30/2021

tHmteti States* Court of Appeals
for tfje Jftftf) Circuit
No. 20-20238

A True Copy

Certified order issued Mar 30,2021

dwi* W. CtM*c*
Clerk, U.S. Court of .Appeals, Fifth Circuit

Herbert Garfield Gardner

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-2185

ORDER:
IT IS ORDERED that the motion for a certificate of appealability
Is DENIED.
IT IS FURTHER ORDERED that the motion for appointment of
counsel is DENIED.
IT IS FURTHER ORDERED that the motion for leave to file
supplemental brief in support of the motion for a certificate of appealability
is DENIED.

8
APPENDIX - A

Case 4:19-cv-02185 Document 23 Filed on 04/09/20 in TXSD Page lot 2
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
HERBERT GARFIELD GARDNER,
TDCJ #01948640
Petitioner,

David J. Bradley, Clerk

§
§
§
§
§

§

VS.

April 09, 2020

CIVIL ACTION NO. H-19-2185

8

LORIE DAVIS, Director,
§
Texas Department of Criminal Justice - §
Correctional Institutions Division,
§
Respondent.

§
§
§

ORDER
State inmate Herbert Garfield Gardner (TDCJ #01948640) filed a petition
for a writ of habeas corpus under 28 U.S.C. § 2254 [Doc. # 1], seeking relief from
a 2014 conviction entered against him in Harris County. On March 27, 2020, the
Court granted the respondent’s motion for summary judgment after finding that the
petition was untimely and dismissed this action as barred by the governing oneyear statute of limitations. Gardner has now filed a motion to alter or amend the
judgment under Rule 59(e) of the Federal Rules of Civil Procedure [Doc. # 22].
Relief from a judgment is available under Rule 59(e) in very limited
circumstances, such as (1) an intervening change in controlling law; (2) newly
discovered evidence that was previously unavailable; or (3) manifest error of law
APPENDIX - B
9 A

Case 4:19-cv-02185 Document 23 Filed on 04/09/20 in TXSD Page 2 of 2
\

or fact. See Trevino v. City of Fort Worth, 944 F.3d 567, 570 (5th Cir. 2019)
(citations omitted). Gardner does not attempt to make this showing. Instead, he
presents arguments that were raised and rejected previously, which are not
appropriate in a motion filed under Rule 59(e). In that regard, it is well established
that a Rule 59(e) motion is not the “proper vehicle for rehashing evidence, legal
theories, or arguments that could have been offered or raised before the entry of
judgment.” Id. (citations omitted). Gardner does not otherwise show that his case
was dismissed in error or that he is entitled to relief under Rule 59(e).
Accordingly, it is ORDERED that Gardner’s motion to alter or amend the
judgment [Doc. # 22] is DENIED. No certificate of appealability will issue from
this decision.
The Clerk’s Office shall provide a copy of this order to the parties.
SIGNED at Houston, Texas on April 9, 2020.

NANCY F. ATLAS
SENIOR UNITES STATES DISTRICT JUDGE
9 B
APPENDIX - B

2

United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
HERBERT GARFIELD GARDNER,
TDCJ #1948640,

§
§
§
§
§
§
§
§
§
§
§
§

Petitioner,
VS.
LORIE DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

March 27, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. 4:19-2185

FINAL JUDGMENT
For the reasons set forth in the Court’s Memorandum and Order of even date,
this case is DISMISSED with prejudice.
This is a FINAL JUDGMENT.
The Clerk’s Office will provide a copy of this order to the parties.
SIGNED at Houston, Texas on

March 7.7

., 2020.

NANCY F. ATLAS
SENIOR UNITED STATES DISTRICT JUDGE
10 c
APPENDIX - C

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
HERBERT GARFIELD GARDNER,
TDCJ #1948640,
Petitioner,

LORIE DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

David J. Bradley, Clerk

§
§
§
§
§

§

VS.

March 27, 2020

CIVIL ACTION NO. 4:19-2185

§
§
§
§
§
§

MEMORANDUM AND ORDER
State inmate Herbert Garfield Gardner (TDCJ #1948640), has filed a petition
for a writ of habeas corpus under 28 U.S.C. § 2254 [Doc. # 1] that includes a
supporting memorandum [Doc. # 1-1], seeking relief from a 2014 conviction for
capital murder that resulted in a sentence of life without parole. The respondent has
answered with a motion for summary judgment, arguing that this action must be
dismissed because the petition is barred by the governing one-year statute of
limitations [Doc. # 8]. Gardner has filed a response [Doc. # 15], a “Motion to
Dismiss” the respondent’s arguments [Doc. # 14], and a motion for a certificate of
appealability [Doc. #18]. After considering all of the pleadings, the state court
records, and the applicable law, the Court will grant the respondent’s motion and
dismiss the petition for the reasons explained below.

APW5tx " c

2. The petition for a writ of habeas corpus filed by Herbert Garfield
Gardner under 28 U.S.C. § 2254 is DENIED and this case is
DISMISSED with prejudice.
3. Gardner’s motion to dismiss [Doc. # 15] is DENIED.
4. Gardner’s motion for a certificate of appealability [Doc. # 18] is
DENIED.
The Clerk will provide a copy of this order to the parties.
SIGNED at Houston, Texas on Marrh 97

, 2020.

NANCY F. ATLAS
SENIOR UNITE® STATES DISTRICT JUDGE

10 B
APPENDIX - C

16

CHRIS DANIEL

o

Harris County District Clerk

,<«r

January 5, 2017
HERBERT GARFIELD GARDNER
#1948640 POLUNSKY UNIT
3872 FM 350 SOUTH
LIVINGSTON, TEXAS 77351
To Whom It May Concern:
Pursuant to Article 11.07 of the Texas Code of Criminal Procedure, please find enclosed
copies of the documents indicated below concerning the Post Conviction Writ filed in
cause number 1372136-A in the 180th District Court.
O State’s Original Answer Filed
I I Affidavit

,

,

I I Court Order Dated
O Respondent’s Proposed Order Designating Issues arid Order For Filing Affidavit.
Q Respondent’s Proposed Findings of Fact and Order

El Other
Sincdhely,

Leslie FfemahdezTDepu
Criminal Post Trial

Enclosure(s) - STATE’S PROPOSED ORDER DESIGNATING ISSUES

11 A

APPENDIX-D
1201 Franklin • P.O.Box 4651 • Houston. Texas 77210-4651 • (888) 545-5577
Page 1

of

I

Rev: 01-02-04

NO. 1372136-A
EX PARTE

§

HERBERT GARFIELD GARDNER

§
§

180TH DISTRICTi-'COHRT

OF
HARRIS COUNTY/ TX

STATE'S PROPOSED ORDER DESIGNATING ISSUES
Having considered the application for Writ of Habeas Corpus in the above captioned cause: The court finds that the following issues need to be resolved:
1. Whether the Applicant was denied effective assistance of counsel at trial.
2. whether Applicant's plea was denied effective assistance of counsel on
appeal.
Therefore, pursuant to Article 11.07 § 3(d), this court will resolve the above
cited issues and then enter findings of fact.
The clerk of the court is ordered to send a copy of this order to the applicant
HERBERT GARDNER, and to counsel for the state, Catina Haynes, 1201 Franklin, Suite
# 600, Houston, TX 77002.
The clerk of the court is ordered to transmit the court's instant order
designating issues to The Court of Criminal Appeals.
The clerk of the court is ordered not to transmit any additional documents
to The Court of Criminal Appeals until further ordered by this court.

ORDER ISSUED JANUARY 5, 2017

11 B
APPENDIX-D

Case No. 137213601010
Incident No./TRN: 9168373236aooi
The State of Texas

In The 180th District

§
§
§
§
§
§
§

v.
GARDNER, HERBERT GARFIELD
State ID NO.:TX08234563

Court
Harris County, Texas

Judgment of Conviction by Jury—Non-Death Capital
Judge Presiding:

Hon. TERRY FLENNIKEN

Attorney for State:

MARY MCFADEN

Date Judgment
Entered:
Attorney for
Defendant:

8/15/2014

KING, VIVIAN RADINE

Offense for which Defendant Convicted:

CAPITAL MURDER
Charging Instrument:

Statute for Offense:

INDICTMENT

N/A

Date of Offense:

12/23/2012
Degree of Offense:

Plea to Offense:

CAPITAL FELONY

NOT GUILTY

Verdict of Jury:

Findings on Deadly Weapon:

GUILTY

YES, A FIREARM

Plea to 1st Enhancement
Paragraph:
Findings on 1st Enhancement
Paragraph:
Punished Assessed bv:

COURT
Punishment and Place
of Confinement:

Plea to 2nd Enhancement/Habitual
Paragraph:
N/A
Findings on 2nd
Enhancement/Habitual Paragraph:
N/A
Date Sentence Imposed:
Date Sentence to Commence:

N/A
N/A

8/15/2014
8/15/2014
LIFE WITHOUT PAROLE, INSTITUTIONAL DIVISION, TDCJ

THIS SENTENCE SHALL RUN CONCURRENTLY.
Fine:
Court Costs:
Restitution:
Restitution Payable to:
$N/A
□ VICTIM (see below) □ AGENCY/AGENT (see below)
$
$ N/A
Sex Offender Registration Requirements do not apply to the Defendant. Tex. Code Crim. PROC. chapter 62.
The age of the victim at the time of the offense was N/A .
If Defendant ia to serve sentence in TDCJ. enter incarceration periods in chronological order.
From

Time
Credited:

12/23/2012

to

8/15/2014

From

to

From

to

From

to

From

to

From

to

If Defendant is to serve sentence in countv jail or is given credit toward fine and costs, enter davs credited below.

N/A DAYS

NOTES: N/A

All pertinent information, names and assessments indicated above are incorporated into the language of the judgment below by reference.

This cause was called for trial in Harris County, Texas. The State appeared by her District Attorney.
Counsel / Waiver of Counsel (select onel
.
< &y
^ Defendant appeared in person with Counsel.
j\
I I Defendant knowingly, intelligently, and voluntarily waived the right to representation by counsel in writing in open court.
It appeared to the Court that Defendant was mentally competent and had pleaded as shown above to the charging
instrument. Both parties announced ready for trial. A jury was selected, impaneled, and sworn. The INDICTMENT was read to the
jury, and Defendant entered a plea to the charged offense. The Court received the plea and entered it of record.
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its duty to determine the
guilt or innocence of Defendant, and the jury retired to consider the evidence. Upon returning to open court, the jury delivered its
verdict in the presence of Defendant and defense counsel, if any.
373
The Court received the verdict and ORDERED it entered upon the minutes of the Court.
_____

Page 1 of 2

The Court Finds Defendant committed the above offense and ORDERS, ADJUDGES AND DECREES that Defendant is
GUILTY of the above offense. The Court Finds the Presentence Investigation, if so ordered, was done according to the applicable
provisions of Tex. CODE Crim.PrOC. art. 42.12 § 9.
The Court ORDERS Defendant punished as indicated above. The Court ORDERS Defendant to pay all fines, court costs, and
restitution as indicated above.
The Court ORDERS the authorized agent of the State of Texas or the Sheriff of this County to take, safely convey, (and deliver
Defendant to the Director, Institutional Division, TDCJ. The Court ORDERS Defendant to be confined for the period and. in the
manner indicated above. The Court ORDERS Defendant remanded to the custody of the Sheriff of this county until the Sheriff can
obey the directions of this sentence. The Court ORDERS Defendant to pay, or make arrangements to pay, any remaining unpaid fines,
court costs, and restitution as ordered by the Court above.
The Court ORDERS Defendant’s sentence EXECUTED.
The Court ORDERS that Defendant is given credit noted above on this sentence for the time spent incarcerated.
Furthermore, the following special findings or orders apply:
Deadly Weapon.
The Court FINDS Defendant used or exhibited a deadly weapon, namely, A FIREARM, during the commission of a
felony offense or during immediate flight therefrom or was a party to the offense and knew that a deadly weapon
would be used or exhibited. TEX. CODE CRIM. PROC. art. 42.12 §3g.

Signed and entered on August 15, 2014
X
TERRY
JUDGE
Ntc Appeal Filed:

7H5-Zoliandate Rec’d:

After Mandate Received, Sentence to Begin Date is:
Def. Received on

at

By:

AM / PM

___________ _ Deputy Sheriff of Harris County

Tf/
Clerk: J. WYCOFF
Right Thumbprint

APPENDIX E
‘12

374
Pape 2 of 2

